a„^

No.

•A- :* W''

X

n

17

(I

, 1

yy

|

i;l

r:- - 1

1 ;

' •

■

''

Supreme Court, U.S.
FILL'D

JAK 2 £> 7:m
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

' W-iV*
— PETITIONER
(Your Name)
VS.
I IaCm.

Ba.tK 'Xzs.rcxM

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

$lyJ-

bSoS

frfTs 6> 11

(Address)

pi(City, State, Zip Code)

(Phone Number)

O ,1

",

i !

WJi; f Xz' v.!1.
f

ij

QUESTION(S) PRESENTED
On September 15, 2020, The State Of New York Court Of
Appeals denied Petitioner's Motion.
Why when the Court Of Appeals learned that Respondent
admitted that Respondent created a criminal FRAUDULENT
Signature against Petitioner name, that resulted in the Court Of
Appeals denied Petitioner, the Court Of Appeals refuses to
reverse the decision and grant Petitioner's Punitive damages?

LIST OF PARTIES

))(] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

9,2$.

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F-

r

'S

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _O__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
■7

The opinion of the jsnr''
appears at Appendix
__ to the petition and is

5

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
03 is unpublished.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______

ti

[ ] A timely .petition for rehearing was thereafter denied on the following date:
T
2*0. (.
., and a copy of the order denying rehearing
appears at Appendix d[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

«

a.

\

QfC^-y

MpvcAicj
A

mr\jL>

O
-v^\

STATEMENT OF THE CASE
While Petitioner was residing in New York, County,
racial hate crime FBI pose as dental doctor poison Petitioner at
Gouverneur Healthcare Service on October 10, 2010.
During May 2011, FBI again, poisoned Petitioner, at Manhattan
gym, New York.
On May 24, 2011 Petitioner reported the poison to Mount Sinai
Beth Israel.
Mount Sinai Beth Israel assured Petitioner, he could
pick up his report on April 21, 2017, however, Mount Sinai Beth
Israel, deliberately destroyed Petitioner medical report in a fire
(page 16) and deliberate cover up FBI crime against Petitioner,
preventing Petitioner from suing the FBI and recovering
monetary punitive damages.

♦«-

-A

REASON FOR GRANTING THE PETITION

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001

Dervanna H. A. Troy-McKoy, Petitioner, Pro7 Se
V
Mount Sinai Beth Israel, Respondent
APPEAL FROM THE STATE OF NEW YORK COURT OF APPEALS

U.S. Supreme Court
Hickory v. United States, 160 U.S. 408 f18S6f
Hickory ¥ United States, Mo. 401; Submitted March 5,1805; Decided January 0, 18tS; ISO
U.S. 408
‘And not only, but the law recognizes another proposition as true, and it is that 'the wicked flee
when no man pursueth. but the innocent are as bold as a Bon.’ That is self-evident proposition
that has been recognized so often by mankind that we take it as an axiom and apply it to this
case”

Petitioner attended Rutgers University (page 7). During which
time racial hate crime FBI had been racially targeting Petitioner
to drop out of Rutgers University triple major in Aerospace/
Aeronautics/Biomedical Engineering (page 7), claiming
Petitioner was trying to be intellectual like whit people.
FBI changed the first minor of Petitioner transcript of four
minors from general chemistry (freshman course) to
biochemistry (senior course) that petitioner already acquired in
his final year. Therefore, damaging Petitioner's intellectual
acclaimed transcript (page 8).
Petitioner was residing in New York, County of New York
(page 9), during which time, racial hate crime FBI pose as
dental doctor and attack on Petitioner at Gouverneur
Healthcare Service on October 10, 2010 and tried to poison
petitioner in a dental chair and refused to sign the dental
2

release form (page 10), as required to be signed as indicate by
subsequent doctors (page 11). FBI attacks continue on
Petitioner. On January 11, 2011, Petitioner reported these
heinous attack to New York Police (page 12).
Petitioner also reported these attacks to FBI on January 6, 2011
(page 13) and the FBI provided Petitioner with a corrupt letter
date January 27, 2011 that expired on January 25, 2011 (page

13).
During May 2011, FBI poisoned Petitioner, at Manhattan gym,
New York (pages 14 & 15).
On May 24, 2011 Petitioner reported the poison attacks by
racial hate crime FBI to Mount Sinai Beth Israel (pages 14 & 15).
The FBI attack was fierce on Petitioner, Petitioner fled to
Florida.
Mount Sinai Beth Israel assured Petitioner, he could
3

. i

pick up his report on April 21, 2017 (page 16). However, Mount
Sinai Beth Israel, deliberately destroyed Petitioner medical
report in a fire (page 16) and deliberate cover up FBI crime
against Petitioner, therefore preventing Petitioner from suing
the FBI and recovering monetary punitive damages.
Petitioner subsequently file lawsuits that reach the Court Of
Appeals State Of New York (Pages 17 & 18) and was provided
case number 2020-416 (page 17)
In n attempt by Respondent to subvert Petitioner's case,
Respondent conspired with deponent Dave Jackson and
created a FRADULUNT SIGNATURE against Petitioner's name
(page 20) and deliberate filed this fraudulent signature against
Petitioner's name (page 20), that does not match Petitioner's
signature (page 18), and further damage Petitioner's
(APPENDIX B) reputation and his intellectual business empire.
4

A

Respondent filed this fraudulent signature intentionally as
Petitioner's signature with the deliberate criminal intention to
have the State Of New York Court Of Appeals denied Petitioner
case against Respondent.
Respondent did not served Petitioner with this sworn
statement of fraudulent signature (page 20), and having
deliberate criminal intentions to persuade the Court Of
Appeal to denied Petitioner (page 21).
On September 15, 2020 (page 21), The State Of New York Court
Of Appeals denied Petitioner's punitive damages against
Respondent of ten millions nine hundred and twenty thousand
dollars {$ 10 920 000.00), as Seth Forth in Petitioner's Notice Of
Motion For Leave To The Court Of Appeals (pages 17 & 18).
About twenty days (20) later, on October 5, 2020 the wicked
Respondent filed a letter (page 22) addressed to Petitioner,
5

stating that the FRADULENT SIGNATURE is not that of
Petitioner.
Petitioner, therefore, asking the Supreme Court Of The united
States to review PETITIONER FOR WRIT OF CERTIORARI and
grant Petitioner punitive damages of ten million nine hundred
and twenty thousand dollars ($ 10 920 000.00).
Foot Note: (page 23-25)

6

Petitioner subsequently file lawsuits that reach the Court Of
Appeals State Of New York and was provided case number

2020-416.
Respondent to subverted case, by conspired with deponent
Dave Jackson and created a FRADULUNT SIGNATURE against
Petitioner's name and deliberate filed this fraudulent signature
does not match Petitioner's signature and have the State Of
New York Court Of Appeals denied Petitioner case against
Respondent.
Petitioner, therefore, asking the Supreme Court Of The united
States to review PETITIONER FOR WRIT OF CERTIORARI and
grant Petitioner punitive damages of ten million nine hundred
and twenty thousand dollars ($ 10 920 000.00).

'-0H'~te^XLy>
~/'S 1(eM*

^0 v|)

tXill( oa. Ac~° ka^Azd C^J} fvOeJ^j
IX^u&v^ 4Xvi '4/°

Boo * o o

Di

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

>AVjc^*VCA \hjft • "T'Ojf

&
X

